RAILROAD SAFETY:
Amtrak Has Made Progress in Implementing Positive Train
Control, but Significant Challenges Remain




                       Report No. OIG-E-2013-003 | December 20, 2012
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:               Donald A. Stadtler, Jr., Vice President, Operations


From:             Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Date:             December 20, 2012

Subject:          Railroad Safety: Amtrak Has Made Progress in Implementing Positive Train
                  Control, but Significant Challenges Remain (Report No. OIG-E-2013-003)

In September 2008, near Chatsworth, California, a Metrolink commuter train ran
through a stop signal and collided with an oncoming Union Pacific freight train, killing
25 people and injuring 101 others. Following this accident, Congress passed the Rail
Safety Improvement Act of 2008 (RSIA),1 which requires each railroad hosting intercity
or commuter rail passenger service to install and operate a Positive Train Control (PTC)
safety system by December 31, 2015. PTC technology is designed to control train
movements to automatically prevent train-to-train collisions, derailments caused by
excessive speed, and the movement of a train through a misaligned main-line track
switch. PTC can also protect roadway workers by slowing or stopping trains from
entering work zones. Amtrak currently plans to spend between approximately $300
million and $625 million to meet the deadline for this mandate.

Amtrak has made some notable progress in implementing PTC. On the Northeast
Corridor (NEC), Amtrak is upgrading and expanding the use of the Advanced Civil
Speed Enforcement System (ACSES), which Amtrak had been using in New England
since 2000 to enforce speed restrictions and stops. The upgrades should improve the
reliability, data capacity, and connectivity of ACSES between Amtrak and the
commuter railroads that operate on the NEC. Amtrak also completed installation of its
Incremental Train Control System on Amtrak’s 97-mile Michigan line between
Kalamazoo, Michigan, and Porter, Indiana, in February 2012, enabling speeds of up to
110 mph.


1   Public Law 110-432, Division A, enacted October 16, 2008.
                                                                                                        2
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012

Further, Amtrak plans to deploy the Interoperable-Electronic Train Management
System (I-ETMS) when the large freight railroads complete development of the system.
Amtrak will install I-ETMS on the NEC to allow the operation of non-ACSES-equipped
freight and commuter trains. Amtrak will also install I-ETMS on its locomotives that
operate on other railroads’ property, off the NEC.

The Deputy Chief Engineer for Communications and Signals in the Engineering
Department was designated the project manager for PTC implementation. His office
created a PTC Implementation Plan in response to federal regulations that implement
the PTC clauses in RSIA (PTC rule).2 According to Federal Railroad Administration
(FRA) officials, Amtrak was the first railroad to have its PTC implementation plan
approved, which occurred in August 2010. The plan described how Amtrak would
deploy and use its PTC systems. The plan also identified and ranked several challenges
to the successful implementation of PTC in order to prioritize and manage the
associated risk that each posed. The plan recognized that some challenges were outside
the control of Amtrak's Engineering Department.

Identification and mitigation of risk are components of a successful enterprise risk
management framework. This is a widely used best practice that helps organizations
manage risk and ensure that business processes are operating effectively. We recently
recommended3 that Amtrak adopt this system, which includes monitoring and
periodically reassessing risks, understanding their relationships, and assigning
ownership of risks to managers who can address them.

Therefore, we focused our work on Amtrak’s efforts to identify and mitigate risks to the
successful implementation of PTC by the December 31, 2015, deadline mandated by
RSIA.4 Specifically, our objective was to report on the extent to which Amtrak is
addressing what are currently the most significant challenges to successful PTC
implementation. For a detailed discussion of our evaluation methodology, see
Appendix I.


2 49 Code of Federal Regulations Part 236 Subpart I.
3 See Amtrak Corporate Governance: Implementing a Risk Management Framework is Essential to Achieving
Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012).
4 Congress considered two bills in 2012 that would delay implementation of PTC beyond the December

31, 2015, deadline, but neither bill was enacted.
                                                                                                       3
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012

SUMMARY OF RESULTS

Amtrak is attempting to mitigate the risks posed by current challenges to PTC
implementation in various ways, but overcoming some of these challenges by the end
of 2015 will require increased attention and emphasis. The four most significant
challenges are (1) acquiring radio frequency spectrum along the NEC in a timely, cost-
effective, and technically adequate manner; (2) developing complete and reliable cost
estimates and budgeting for those estimated costs to attempt to ensure the availability
of adequate funding; (3) obtaining timely FRA approval of planned upgrades to
Amtrak’s ACSES on the NEC; and (4) mitigating the potential effect on Amtrak’s
implementation of PTC due to delays in the freight railroads’ development of I-ETMS.

The most serious challenge at this time to implementing PTC is acquiring radio
frequency spectrum along the NEC. Radio frequency spectrum5 is critical to the
operation of ACSES because it enables the data radio network to transmit permanent
and temporary speed limits to a train’s on-board computers to slow or stop the train as
needed. Amtrak must obtain licenses for spectrum about 18 months before the deadline
to be able to complete upgrades to ACSES prior to putting it into service along the NEC.
Amtrak has thus far been unsuccessful in its attempt to acquire spectrum from four
different sources, including the Federal Communications Commission (FCC), and now
faces the prospect of having to stitch together enough licenses in the 220 megahertz
(MHz) range through piecemeal acquisitions, county-by-county, to ensure coverage
along the NEC.

Amtrak officials believe, and we generally agree, that procuring spectrum in this
manner could result in coverage gaps and will be considerably more expensive than
obtaining the spectrum license from one vendor. We estimate that Amtrak has only
about a year left to contract for sufficient spectrum to cover the NEC before the lack of
spectrum affects Amtrak’s ability to meet the deadline. This is because it could take an
additional 6 months, but likely more than 12 months, for the FCC to review and
approve the transfer of a vendor’s license after an agreement is reached. If Amtrak


5Radio frequency spectrum is a natural resource that is used to enable wireless communications services.
Spectrum is segmented into bands of radio frequencies typically measured in cycles per second (hertz),
and the Federal Communications Commission manages the licenses of the bands to be used for PTC
systems.
                                                                                                    4
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

cannot find and reach agreements with potential vendors before the summer of 2013, it
may need to engage the federal government to come up with a solution because it
currently does not have a viable technical alternative if 220 MHz spectrum is
unavailable.6

A second significant challenge is ensuring that Amtrak has enough funds available to
implement PTC fully by the deadline. Amtrak cannot rely on the federal government to
provide extra funds at the last minute for implementation; therefore, it needs to request
and budget these funds properly, based on up-to-date and accurate estimates of the
costs of implementation over the next 3 years. However, we could verify neither the
Engineering Department’s $188-million estimate of the full cost to install PTC on
Amtrak property, nor the Transportation Department’s estimate of between $115
million and $436 million for Amtrak’s part of the costs to install PTC on host railroad
property. Both estimates are, therefore, potentially incomplete and unreliable. Further,
Amtrak has not included these estimates in its Five-Year Financial Plan for FY 2012–FY
2016 published in January 2012, despite identifying the availability of funds as high-risk
and being required to budget these costs by federal law. In addition, due to Amtrak’s
fragmented budgeting process for PTC, it remains unclear whether Engineering or
Transportation is responsible for budgeting for the costs of installing PTC on host
railroad property. These costs could consume a significant portion of either
department’s Fiscal Year (FY) 2014 or FY 2015 budgets.

A third challenge Amtrak faces is having its planned upgrades to ACSES approved by
FRA in time to meet the deadline. Engineering assumed that because it had years of
operational experience with ACSES, any upgrades would require minimal
documentation and testing. However, some of the planned ACSES upgrades are
significant enough to require full safety reviews, which will necessitate significant time
for review and approval by FRA. Although Amtrak has revised its completion date for
the review, approval, and installation of new ACSES components to September 30, 2013,
our analysis shows this timeline to be overly optimistic. We estimate that review,
approval, and installation of the upgrades will take until the end of March 2014 at the


6Amtrak’s two potential options have such limited capability that they could cause trains to stop
unnecessarily at control points, resulting in significant trip delays.
                                                                                                           5
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

earliest, assuming that Amtrak can concurrently submit the upgrades for review and
that FRA has the staff available to perform the reviews while examining other railroads’
submissions. This estimate also assumes that the upgrades are not technically complex
(requiring more time for review) and that Amtrak does not experience any unforeseen
technical design problems that could delay submission of the upgrade for review.7
Moreover, given the long potential lead time for acquiring spectrum, and the 18 months
needed to complete implementation of ACSES upon acquiring spectrum, Amtrak
cannot risk lengthy delays associated with the regulatory approvals of ACSES
upgrades. Assuming the rest of FRA’s reviews go smoothly, we currently estimate that
Amtrak will not be able to meet the connectivity requirements of the PTC rule until
about June 2015, only about 6 months before the deadline.8

Finally, delays in the freight railroads’ development of I-ETMS pose a challenge to
Amtrak's having enough time to implement PTC by the deadline on the NEC or in its
locomotives that operate off the NEC. The freight railroads are significantly behind
schedule in the development of I-ETMS. Amtrak is taking action to mitigate this risk,
which may prove difficult to manage because it has very limited control over any of the
other developmental delays that could further disrupt its schedule. Additionally,
Amtrak appears to have little control over ensuring that technical challenges that could
affect passenger train operations are addressed in a timely manner. Amtrak cannot
absorb any further significant delays to development of I-ETMS if it expects to meet the
statutory deadline.

While formidable in and of themselves, these four challenges are interrelated;
successfully addressing them will require a well-coordinated and integrated effort
across several Amtrak departments in order to implement PTC by the deadline and
achieve the safety benefits derived from PTC systems envisioned in RSIA. Therefore, we
are making eight specific recommendations to improve the management of PTC
implementation, including that the Vice President, Operations, designate a senior
executive to manage the overall program, or fully empower the Deputy Chief Engineer



7 This is not a criticism of FRA’s approval process, but is based on our analysis of the complexities
involved in the process to ensure that the upgrades meet safety standards.
8 See Appendix II for a timeline estimating and illustrating the relationship between the acquisition of

radio spectrum and FRA’s approval of upgrades to ACSES.
                                                                                                             6
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

for Communications and Signals with clear responsibility and authority to manage
implementation of PTC as an integrated program.

Amtrak’s Vice President, Operations, provided us with comments on a draft of this
report on December 12, 2012, wherein he concurred with all of our recommendations
and established time frames in which Amtrak will implement the recommendations
(see Appendix III). We consider his comments responsive to our recommendations and
we will follow up on their implementation.



CHALLENGES IN ACQUIRING RADIO SPECTRUM POSE
SERIOUS RISKS TO PTC IMPLEMENTATION

Amtrak’s inability to obtain radio frequency spectrum along the NEC is the most
significant challenge it faces in implementing PTC by the statutory deadline. Following
the passage of RSIA, the large freight railroads acquired licenses in the 220 MHz
spectrum and established this frequency as the industry standard.9 As shown in Figure
1, PTC systems use radios in the 220 MHz spectrum for wayside-to-train10
communications to transmit information about speed restrictions. Radio spectrum is
critical to the operation of ACSES because it enables the data radio network to transmit
permanent and temporary speed limits to a train’s on-board computers in order to slow
or stop the train, as needed. Moreover, we estimate that Amtrak needs this spectrum
about 18 months prior to the deadline so that it can activate the 220 MHz data radio
network on its existing ACSES system in New England, change its trains to the new
data radio system, and conduct final testing of the upgraded ACSES system before
placing it in service across the NEC.11



9 Although the industry commonly refers to the 220 MHz band as the standard, PTC systems will
communicate across a range of frequencies, from 217 MHz through 222 MHz.
10 The wayside is defined as the portion of the railroad’s right-of-way that is next to the track, for the

purposes of this report.
11 In May 2010, FRA approved ACSES as deployed in New England for use as a PTC system. However,

when Amtrak decided to expand ACSES to the rest of the NEC to meet the PTC mandate, it formed a
PTC users group for tenant commuter railroads on the NEC to share information and establish technical
standards among the railroads. From this group, Amtrak determined that it would need to upgrade
ACSES to improve reliability, data capacity, and connectivity with the tenant railroads.
                                                                                                 7
                             Amtrak Office of Inspector General
               Railroad Safety: Amtrak Has Made Progress in Implementing
                Positive Train Control, but Significant Challenges Remain
                      Report No. OIG-E-2013-003, December 20, 2012

                               Figure 1. PTC on the NEC




Source: Amtrak Office of Inspector General (OIG) analysis of ACSES and I-ETMS design documents
                                                                                          8
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

In the implementation plan, Engineering did not identify spectrum as a risk to PTC
implementation, believing that it had several means available for acquiring spectrum;
however, this has proved not to be the case. Amtrak found that FCC has already
licensed much of the spectrum in this band to other parties, and has made several
unsuccessful attempts to obtain 220 MHz radio spectrum licenses over the last 2 years
from these parties. These efforts have involved Engineering, the Law Department, the
Office of Government Affairs and Corporate Communications, and Amtrak’s
Procurement Services office. For example:

   Amtrak tried to acquire spectrum through a general solicitation in July 2010. A
   vendor stated that it had a block of spectrum covering the NEC; however, Amtrak
   later learned that the vendor’s licenses may not be available for sale for several years
   because of a legal challenge questioning the vendor’s qualifications to hold the
   licenses and a bankruptcy proceeding filed after the vendor submitted its bid
   proposal to Amtrak. Depending on the outcome of these legal actions, the licenses
   may not be available at all. After consultation with Amtrak’s legal counsel, along
   with outside counsel specializing in FCC matters, Amtrak decided not to purchase
   the spectrum from the vendor until the issue was settled. As a result, Amtrak did
   not pursue this option.

   Amtrak also attempted to acquire spectrum from the consortium—called PTC-220,
   LLC—set up by the freight railroads to manage its spectrum licenses. However,
   according to a Law Department official, PTC-220 declined to sell spectrum to
   Amtrak in June 2011, citing potential technical difficulties in using the same
   spectrum on the NEC for both I-ETMS and the ACSES network.

   Amtrak attempted another general solicitation on October 5, 2011. According to an
   Amtrak official, only one vendor offered licenses in all 35 counties along the NEC;
   other responders offered licenses in only a limited number of counties. After
   analyzing the proposal and conducting a “title search” of its licenses, Amtrak
   determined that the offeror may not own all of the licenses included in its proposal
   and, therefore, it might not be able to provide a sufficient amount of spectrum to
   meet Amtrak’s requirements. Amtrak canceled the transaction on July 26, 2012.

A Law Department official stated that Amtrak has been communicating with the FCC
on this issue since the fall of 2010 and has met with FCC officials on multiple occasions.
In May 2011, the FCC asked the railroads and other interested parties to comment on
                                                                                                     9
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012

their spectrum needs related to the implementation of PTC. In response, Amtrak
provided comments in June 2011, requesting that FCC reallocate spectrum in the 218-
219 MHz band12 for PTC use, thus making spectrum licenses available to Amtrak.
Amtrak also met with FCC officials in August 2011 to provide a presentation on
Amtrak’s need for additional spectrum and the availability of spectrum in the 218-219
MHz band in FCC’s inventory that could be reallocated and licensed for PTC.

Amtrak officials met with the FCC again in July 2012 to discuss Amtrak’s difficulties in
acquiring spectrum on the secondary market. According to an Amtrak official, FCC
officials stated at the meeting that Amtrak should be able to obtain spectrum from other
parties with noncontiguous spectrum licenses across the NEC. According to both
Engineering and the Law Department, this approach would necessitate piecemeal,
county-by-county acquisitions with the hope that Amtrak could stitch together enough
licenses in the 220 MHz range to ensure coverage along the NEC. Faced with limited
options, in September 2012 Amtrak started to identify spectrum vendors that could
provide coverage limited to the New England area. Amtrak officials believe, and we
generally agree, that procuring spectrum in this manner could result in significant
technical problems resulting from gaps in coverage, and would likely cost more
(although Amtrak has not conducted a full analysis to determine this). Further,
according to a Law Department official, it could take an additional 6 months—but likely
more than 12—for the FCC to review and approve the transfer of vendors’ licenses once
Amtrak contracts for the spectrum. Since Amtrak needs to obtain spectrum before the
18-month set-up period can begin, we estimate that the company has only about a year
left to contract for sufficient spectrum to cover the NEC before the lack of spectrum
starts affecting Amtrak’s ability to meet the deadline.

To help mitigate this, Amtrak’s Office of Government Affairs and Corporate
Communications has begun to work with Congress to address the availability of
spectrum. In May 2012, Amtrak provided the office of Senator Frank Lautenberg (New
Jersey) with information to support an inquiry to the FCC on the availability of 220
MHz spectrum. Amtrak also met with the staff of the Senate Commerce Committee in
late August 2012 to discuss radio spectrum. Amtrak plans to continue to meet with


12Amtrak believes that spectrum in this range may be available and generally provides the same
capability as the 220 MHz band. However, license owners of this spectrum have commented to the FCC
that it would be unfair to reallocate spectrum they purchased in a competitive bidding process.
                                                                                                         10
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012

congressional officials, along with tenant and commuter railroads, to discuss a plan of
action on the availability of spectrum. This is the start of what is likely to be a long
process to obtain PTC-dedicated radio frequency spectrum.

Obtaining this spectrum is also important because Amtrak does not have a viable
alternative for the NEC if 220 MHz spectrum is unavailable. When we asked
Engineering for possible alternatives, officials discussed two potential options, while
endorsing neither because of their limited capabilities. According to Engineering
officials, one option would be to operate its 220 MHz radios under its low-wattage
licenses, but these are secondary licenses and the low-wattage spectrum is susceptible
to interference from primary license-holders using the spectrum. Additionally, this
option will not provide complete coverage along the NEC, and could cause trains to
stop unnecessarily at some interlockings13 and other control points, resulting in
significant delays. The other option is using Engineering’s existing 900 MHz ACSES
radio system in conjunction with the upgrades, but this system has significant reliability
problems that could also cause trip delays. Further, a change from the 220 MHz radio
spectrum may require redesign, testing, and installation of a new data radio network,
triggering a separate FRA review. According to an Engineering official, such a change
would also require tenant and commuter railroads on the NEC to change their radios. If
Amtrak had to pursue one of these less capable options, it could jeopardize the
company’s ability to implement ACSES by the end of 2015.



CHALLENGES IN ENSURING AVAILABILITY OF FUNDS
POSE SIGNIFICANT RISKS TO PTC IMPLEMENTATION

Ensuring that Amtrak has enough funds available to implement PTC by the statutory
deadline is a challenge because of Amtrak’s weak cost estimates and fragmented
budgeting process. Two different Amtrak departments are responsible for estimating
the costs of PTC, depending on whether the installation is on Amtrak property or host
railroad property. Engineering’s estimate of the cost to install PTC on Amtrak property
and equipment may be unreliable because supporting documentation for the estimate is
lacking and because an updated estimate has not been provided to anyone outside of

13An interlocking is an arrangement of switches and signals that safely controls train movement across
track junctions or crossings.
                                                                                                           11
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

Engineering since 2010. Transportation’s estimate of the costs to install PTC on host
railroad lines may also be unreliable because it is based on limited information from
early 2010. Most important, funds may not be available to complete implementation of
PTC by the deadline because Amtrak did not include all of the funds it needs to
implement PTC in either its 5-year financial plan or its FY 2013 legislative and grant
request to Congress. Full funding was not included in these documents even though (1)
federal law, Amtrak policy, and sound business practices require funding needs to be
identified; and (2) the program office identified the likelihood of not receiving adequate
funds as a high-risk issue.


Estimates of Installation Costs on Amtrak Property May be Unreliable

Engineering’s estimates of the cost to install PTC on Amtrak property and equipment
were not detailed enough to determine whether estimated costs were accurate and
reliable. According to Engineering officials, their current estimate of $188 million
includes costs from FY 2009 through FY 2015 for installing ACSES and I-ETMS on the
NEC and installing I-ETMS on Amtrak’s 305 locomotives that operate off the NEC.14
Engineering based its estimate on its professional experience and a review of the costs
for originally installing ACSES on segments of the NEC between 2000 and 2008.
Engineering briefed this estimate to Amtrak’s Board of Directors on March 18, 2010.

Engineering could not provide any detailed documentation to support its estimate.
Fully documenting and detailing the methodology used to develop an estimate is one of
the 12 components of a high-quality cost estimate that both industry and government
use, according to the U.S. Government Accountability Office.15 For example, the
documentation supporting a cost estimate should show all assumptions, descriptions,
methods, and calculations used to develop the estimate, and explain why methods and
data sets were chosen. There also should be enough detail so that the documentation
provides for clear tracking of the program’s costs as it moves through execution. None



14 This total also includes costs for installing the Incremental Train Control System in Michigan and I-
ETMS at Chicago Union Station.
15 For more information on all 12 steps of a high-quality cost estimate, see the U.S. Government

Accountability Office’s Cost Estimating and Assessment Guide: Best Practices for Developing and Managing
Capital Program Costs (GAO-09-3SP, March 2, 2009).
                                                                                        12
                                  Amtrak Office of Inspector General
                    Railroad Safety: Amtrak Has Made Progress in Implementing
                     Positive Train Control, but Significant Challenges Remain
                           Report No. OIG-E-2013-003, December 20, 2012

of this documentation was available from Engineering and therefore its estimate may
not provide a reliable basis for projecting total program costs.

Another aspect of a high-quality cost estimate is the continuous monitoring of
estimated costs, comparing them with actual costs to ensure that the estimate is relevant
and current. According to Engineering, it has reviewed its costs each year since the
estimate was developed and although incurred costs through May 2012 have been
slightly lower than expected, Engineering is experiencing many problems with PTC
implementation that will likely increase its overall costs. For example, Engineering
allotted $12 million for spectrum over the course of FY 2012 and FY 2013, but, as
discussed, acquiring radio spectrum could cost much more than this. However,
Engineering has not provided a revised estimate to anyone outside of its own
department. Given this and other challenges discussed below, we believe that the cost
for installing PTC on Amtrak property and equipment may rise, thereby increasing the
risk that Amtrak could need more funds to implement PTC than currently planned.



Estimates of PTC Installation Costs on Host Railroad Property May be
Unreliable

According to an Amtrak Transportation Department official, the Department has not
updated its estimate for the costs that Amtrak may be required to reimburse host
railroads for installing PTC on the host railroads' lines, despite several new
developments since 2010. Consistent with its authorizing legislation,16 Amtrak may
need to reimburse host railroads for costs they incur for installing PTC if those costs are
due solely to Amtrak’s running passenger trains on those lines. In 2010, Transportation
estimated a range of these costs from a low of $115 million to a high of $436 million, and
briefed this estimate to the Amtrak Board of Directors on March 18, 2010.

A Transportation official stated the range in estimates was due to potential changes to
the PTC rule. Not only does RSIA require host railroads to install PTC on lines that
carry passenger trains, it also requires them to install PTC on lines over which it ships
poison or toxic-by-inhalation hazardous materials, such as chlorine. These railroads
sought, and FRA granted, a change in the PTC rule—effective July 13, 2012—modifying

16   49 U.S.C. 24308.
                                                                                                        13
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

the baseline year for determining which lines require PTC, from 2008 to 2015. Amtrak
based its low estimate on the 2008 baseline and the high estimate on the 2015 baseline. 17
The effect of this rule change could allow host railroads to reroute hazardous materials
shipments, thereby exempting them from having to install PTC on lines that would no
longer carry trains with hazardous materials. If these lines now require PTC installation
solely because of Amtrak trains, this could cause Amtrak to bear the costs for installing
PTC on these lines.

Amtrak does not yet know the full effect of the rule change because FRA considers the
information about specific route changes “security-sensitive” and has not made the
information available to Amtrak. Although Amtrak officials currently believe the costs
to be closer to the high end of this range ($436 million), an Association of American
Railroads estimate showed that this rule change might affect only about 1,600 passenger
route miles, with an estimated PTC installation cost of about $50,000 per mile. Using
this estimate, we calculated that Amtrak could be liable for up to only about $80 million
in additional costs to the 2008 baseline (for a total of $195 million) if Amtrak trains were
the sole reason that PTC had to be installed along all 1,600 miles. This would
significantly decrease the high end of Transportation’s estimate. However, neither
Amtrak nor we have the information necessary to judge the accuracy of the
Association’s estimate.

Amtrak has not pursued obtaining additional details on the hazardous materials route
changes from the host railroads. According to a Transportation official, Amtrak wants
to negotiate these costs only after the host railroads approach Amtrak with a cost
estimate or bill for installing PTC. Consequently, we found no one in Amtrak who
could explain with any specificity the costs that Amtrak may incur due to the PTC rule
change.

In addition, Transportation’s estimate does not include the cost of other access fees,
such as using host railroads’ radio spectrum when traveling over their lines. PTC-220,
the freight railroad consortium, notified the FCC on July 19, 2012, that it plans to charge


17These estimates assumed that Amtrak and host railroads would apply for and FRA would grant
potential exceptions to installing PTC on some host mainlines due to minimal rail traffic, slow speeds, or
other restriction already in place on these lines. According to a Transportation official, Amtrak helped
some of its host railroads prepare these exceptions, which FRA has approved.
                                                                                                           14
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

nonmembers a fee for access to its 220 MHz spectrum. Therefore, Amtrak may be at
risk for charges to access host railroad spectrum needed to operate Amtrak trains
equipped with I-ETMS off the NEC.



Amtrak Has Not Included Total Funding for PTC in Its Financial Plan
or Congressional Funding Requests

Amtrak did not include its total estimated costs for PTC implementation in its 5-year
financial plan published in January 2012. It also did not include its total estimated costs
for FY 2013 in its FY 2013 budget request submitted to Congress in February 2012. As a
result, Amtrak is at risk of not having adequate funds to complete PTC installation.

     While Amtrak is required to submit its 5-year financial plan to Congress annually,
     pursuant to the Passenger Rail Investment and Improvement Act of 2008, it did not
     include its total funding requirements in its January 2012 submission.18 The plan is
     required to include all projected expenditures for Amtrak over the period.
     Additionally, Amtrak’s own capital programming policy requires multi-year
     programs, such as PTC, to include projected costs over the 5-year budget cycle.
     Despite these requirements, and Amtrak’s having cost estimates available since
     March 2010, the funding required to install PTC on Amtrak property ($188 million)
     was not included in the Five-Year Financial Plan for FY 2012–FY 2016 published in
     January 2012.

     Instead, Amtrak identified only the amount of funds it had spent installing PTC
     from FY 2009 through FY 2011 ($64 million)19 and the amount it planned to spend in
     FY 2012 and FY 2013 to install ACSES and I-ETMS on the NEC ($27.5 million). The
     plan did not include the balance of Engineering’s estimated costs for installing PTC
     on Amtrak property in FY 2014 and 2015 (about $96.5 million), and did not include
     any estimated costs for installing PTC on host railroad property (between $115
     million and $436 million).

18Public Law 110-432.
19Amtrak used part of the $1.3 billion provided to it through the American Recovery and Reinvestment
Act of 2009 (Public Law 111-5) for the repair, rehabilitation, or upgrade of railroad assets or infrastructure
to fund PTC implementation from FY 2009 through FY 2011. We will be reporting on Amtrak’s
accounting of these funds separately.
                                                                                                         15
                                  Amtrak Office of Inspector General
                    Railroad Safety: Amtrak Has Made Progress in Implementing
                     Positive Train Control, but Significant Challenges Remain
                           Report No. OIG-E-2013-003, December 20, 2012



       Amtrak also did not include all of its funding requirement for 2013 in its FY 2013
       legislative and grant request submitted to Congress in February 2012 as part of its
       annual legislative and grant request. The Consolidated Appropriations Act of 201020
       required Amtrak to include the funding required for the projects for each fiscal year
       in its budget request submitted to Congress. According to Engineering officials, they
       planned to spend about $31.9 million installing PTC on Amtrak property and
       equipment in 2013, but Amtrak included only $5.4 million in its FY 2013
       congressional funding request.21 Amtrak did not include any funds to install PTC on
       host railroads’ property in this request.

Despite the high-profile nature of PTC, and legal requirements to include funding
requirements in Amtrak’s 5-year financial plan and annual budget requests, neither
Engineering nor Finance could explain why the total estimated costs of installing PTC
on Amtrak equipment and property were not included in these documents. An
Engineering official thought his department had included the money in its capital
budget submission, and stated that he had briefed Finance on the costs of the program
through FY 2015 after the March 2010 briefing to the Board of Directors, but could not
explain the omission. The official acknowledged that it was Engineering’s responsibility
to include this information in the budget. According to a Finance official, Engineering
did not include the full funding required for PTC in its budget submissions, but Finance
was unable to provide the documentation that Engineering submitted.

Further, a Transportation official stated that his department purposely omitted PTC
installation costs on host railroad lines from Amtrak’s 5-year plan and annual budget
requests. He cited his belief that including these costs in the budget would weaken
Amtrak’s negotiating position with the host railroads because it would alert the
railroads to the amount of money that was potentially available to pay these costs.
Instead of alerting the host railroads that they should be tracking these costs,
Transportation officials plan to negotiate these costs and develop a payment plan when
approached by the individual host railroad. For example, according to Transportation
officials, they are currently negotiating Kansas City Terminal Railroad’s original claim
of $48 million for PTC installation. Following reviews by Amtrak and further

20   Public Law 111-117, Consolidated Appropriations Act 2010, December 16, 2009.
21   This figure is included in the $27.5 million in the Five-Year Financial Plan for FY 2012–FY 2016.
                                                                                        16
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

negotiations, Kansas City Terminal significantly reduced the original claimed amount,
and discussions are ongoing. Regardless of Transportation’s rationale, we question why
Finance agreed to keep these costs out of the budget, when doing so does not meet the
requirements in the laws governing Amtrak’s budget requests to Congress.

Amtrak’s revised budget for FY 2013, approved in September 2012, added some funds
for PTC implementation, but still did not fully fund the amount Engineering projected
spending in FY 2013. As a result, a significant portion of the costs for PTC
implementation will be pushed into FY 2014 and FY 2015. For example, the revised
budget includes only about $24.2 million for installing PTC on Amtrak property ($7.7
million less than the $31.3 million Engineering planned for FY 2013). This means,
according to an Engineering official, that Engineering will need to add about $8 million
for installing I-ETMS on Amtrak’s locomotives that it planned to spend in FY 2013 to
the FY 2014 budget, in order to meet the PTC deadline. In addition, the revised budget
only includes about $1 million for installing PTC on host railroad property, meaning
that Amtrak will need to incorporate almost all of the estimated costs for installing PTC
on host railroad property into future budgets.

In addition, it remains unclear what type of funds will be used and who is responsible
for budgeting for the cost to install PTC on host railroad property. According to a
Transportation official, the Department typically pays host railroads out of operating
funds for the costs they incur solely due to Amtrak's running trains on their lines, which
may now include costs for PTC installation. Although Engineering included $1 million
in its capital budget for this for FY 2013, an Engineering official stated that they do not
plan to include any funds for PTC installation on host railroad property in future years'
budgets. These costs could potentially consume a significant portion of either
Engineering’s or Transportation’s FY 2014 and FY 2015 budgets, even if Amtrak spreads
the payments out over several years, and could unnecessarily force Amtrak into making
significant budget tradeoffs between PTC and other priorities if these costs are not
properly included in budget estimates and funding requests. According to a Finance
official, Amtrak probably would request more money from the federal government if it
could not come up with the funds to pay for PTC. We believe that this is a potentially
risky position to take, given the realities of the federal budget outlook.
                                                                                                    17
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012

Amtrak Has Not Addressed the Risk of Funds Not Being Available

Engineering officials disclosed in the PTC implementation plan that the availability of
funding to complete implementation was a major risk. According to an Engineering
official, Engineering completed the risk assessment in accordance with the
Department’s own project control procedures for capital construction projects rather
than in response to the PTC rule. This guidance requires Engineering to assess both the
likelihood of a negative event occurring during the project and the magnitude of its
potential consequences in order to address project risk appropriately. Where risk is
high, Engineering would be required to develop a plan to mitigate the risk. However,
the implementation plan stated that funding would be addressed through other
channels because it was beyond the scope of Engineering’s control. Therefore,
Engineering did not develop a mitigation plan for this risk, or alert other parts of
Amtrak that such might be needed. While we generally agree that funding PTC is
beyond the control of Engineering, the Department nevertheless had an obligation to
raise this issue to an appropriate level.22 No other department or office within Amtrak
was accountable for ensuring that enough funds would be available to complete PTC
implementation.



CHALLENGES IN MEETING REGULATORY REQUIREMENTS
POSE SIGNIFICANT RISKS TO PTC IMPLEMENTATION

Amtrak has had significant difficulty in obtaining FRA approval for upgrades to
ACSES. Under the PTC rule, FRA must approve any modification to existing PTC
systems to ensure that they meet PTC requirements and general safety standards by the
statutory deadline. Engineering assumed that because it had years of operational
experience and because FRA had already approved ACSES for use as a PTC system,
any upgrades to ACSES would require minimal documentation. Accordingly, in the
PTC implementation plan, Engineering identified and ranked four risks associated with


22The enterprise risk management framework we recommended in March 2012 establishes a process for
each manager to assess risks and raise those beyond his or her control to the next level, so that all
significant risks can be addressed. See Amtrak Corporate Governance: Implementing a Risk Management
Framework is Essential to Achieving Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012).
                                                                                                        18
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

ACSES upgrades, but none concerned regulatory approval. This assumption proved
initially true when Amtrak presented two sets of ACSES upgrades to FRA in early 2011.
These two upgrades related to new transponder models and software changes to the
on-board display. FRA approved these upgrades within 60 days. Since approval,
Engineering had installed about 94 percent of the transponders as of August 8, 2012.23

However, the third proposed set of upgrades to ACSES, in July 2011, was more
complex. Engineering bundled several technical changes into one request for approval,
notifying FRA of Amtrak’s intent to replace the ACSES on-board display units and
change the on-board data radios, along with associated software revisions. FRA
responded that these changes were significant enough to require full safety reviews
because these components had no operational history. Amtrak and FRA exchanged
letters for several months before setting up informal meetings, also known as
workshops, to discuss technical issues and requirements before formally submitting
ACSES upgrades for approval. Amtrak held several workshops with FRA to discuss
this request. In February 2012, Engineering split the submission into two separate
requests for the on-board display unit upgrade and the data radio upgrade (which also
included train and wayside communication managers). FRA approved the on-board
display unit upgrade on August 8, 2012, but Amtrak has still not submitted the second
request. Amtrak officials are currently conducting workshops with FRA concerning the
second request. As of September 13, 2012, Engineering believed these workshops would
lead to a formal submission to upgrade the data radio in the fall of 2012 and FRA
approval by the end of January 2013.

In April 2012 Engineering revised the installation schedule for the remaining ACSES
components from late 2012 to September 2013. Engineering determined that it had
numerous additional technical changes and upgrades that would require FRA review
and approval. Engineering intends to bundle these changes into four requests for
approval to FRA: three are for upgrades of ACSES components, and the fourth upgrade
is for connectivity (interoperability24) of ACSES with commuter railroads. Engineering



23 In addition to the transponders, Amtrak has also completed, or substantially completed, the installation
of radio huts, antennas, and fiber cables along the NEC.
24 The PTC rule defines interoperability as the ability of a locomotive to communicate with and respond

to the host railroad’s PTC system, enabling uninterrupted movement over property boundaries.
                                                                                         19
                                  Amtrak Office of Inspector General
                    Railroad Safety: Amtrak Has Made Progress in Implementing
                     Positive Train Control, but Significant Challenges Remain
                           Report No. OIG-E-2013-003, December 20, 2012

based this September 2013 installation date on an assumption that each revision will
take 3 months for FRA approval.

This was the first time since FRA approved the implementation plan that Engineering
had revised its schedule. Engineering did not follow project control procedures, which
called for the development of an overall master project schedule and other detailed
plans identifying tasks, resources, and dependencies needed to complete the project.
Instead, an Engineering official said that he developed a general listing of tasks for each
site where work was to be performed because the situation had been too dynamic. Had
Engineering followed its guidance and performed periodic reviews of its schedule and
risk assessment, it likely would have seen that this schedule revision did not include
enough time for FRA approvals.

Our analysis shows that, based on actual experience, the September 2013 completion
date is overly optimistic. FRA’s review of the on-board display unit took 13 months,
and approval of the data radios is still pending. This is in contrast to Amtrak’s latest
schedule showing 3 months for each FRA review. Although both Amtrak and FRA
officials said that recent changes to the review process, including the introduction of
workshops, should lead to reduced review times, we estimate that FRA approval of
Engineering’s requests for proposed upgrades to ACSES will take about 9 months each.
We base this on a timeline of about 90 days to prepare the submission documents after
Engineering completes design, development, procurement, and prototyping. The
estimate also includes another 90 days for FRA to review and respond to the initial
request under the new framework using the workshops.25 Then, we estimated 30 days
for Engineering to respond to FRA’s questions, and 60 days for FRA to review and
approve Engineering’s final response. We currently estimate that Amtrak will not
complete installation of its upgrades until about March 2014.

We believe that this is a more likely scenario than Amtrak's estimates. However, our
estimate assumes that Engineering can submit the upgrades concurrently, rather than
sequentially as with the on-board computer and data radio upgrades, and that FRA has
sufficient staff to review these requests concurrently (at the same time that 37 other
railroads could be submitting requests for approval). We also assume that the upgrades
are not technically complex, which could precipitate a more lengthy review. Finally, we

25   According to an FRA official, it takes them about 90 days to review a request.
                                                                                                        20
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

assume that Amtrak does not experience any unforeseen technical problems that could
postpone submission of the upgrades for approval. While we realize that Engineering
may be able to compress some steps, if any of our assumptions turns out to be wrong,
approval of the upgrades could take much longer.

Amtrak’s timeline also assumes minimal technical difficulties with purchased
equipment or during installation, although Engineering has already experienced
unforeseen technical issues with equipment on the project. For example, Amtrak had
significant problems with the wayside interface units that provide information to trains
about signal indications and switch positions. After initially delivering the units
between November 2010 and January 2011, Alstom, the vendor, discovered that the
wayside interface units did not meet safety and performance standards and notified
Amtrak. According to an Engineering official, Alstom fixed the problem and began
redelivering the 252 units in June 2012, about 19 months after the original delivery date.
Engineering has started installing the units, and estimated that it will take about a year
to install all required units across the remaining seven of the eight ACSES line segments
on the NEC. (Amtrak already installed legacy units on line segment 3 in New England.)
Figure 226 shows NEC ACSES line segments.




26Although Engineering has already started installing the units, officials stated that they would not
activate wayside interface units until FRA provided final approval.
                                                                             21
                              Amtrak Office of Inspector General
                Railroad Safety: Amtrak Has Made Progress in Implementing
                 Positive Train Control, but Significant Challenges Remain
                       Report No. OIG-E-2013-003, December 20, 2012


                       Figure 2. NEC ACSES Line Segments




Source: OIG analysis of Amtrak technical documents
                                                                                                              22
                                Amtrak Office of Inspector General
                  Railroad Safety: Amtrak Has Made Progress in Implementing
                   Positive Train Control, but Significant Challenges Remain
                         Report No. OIG-E-2013-003, December 20, 2012

Approval of the individual upgrades is not the last step in the process. FRA officials
have indicated that ACSES could need a full system review following the installation of
all the new components before it agrees that the system meets all safety requirements.
To meet the RSIA interoperability mandate, FRA will also need to approve Amtrak’s
planned upgrades to ensure connectivity with tenant commuter railroads. We estimate
that Amtrak will not be ready for FRA to certify ACSES’ interoperability with tenant
commuter railroads—assuming spectrum is available—until about July 2015. Although
FRA’s approval process is potentially time-consuming, it ensures that ACSES and other
PTC systems meet safety standards; Amtrak needs to account for this process properly
if it expects to implement ACSES in time to meet the requirements in RSIA by the end of
2015.



CHALLENGES IN THE DEVELOPMENT OF I-ETMS POSE
SIGNIFICANT RISKS TO PTC IMPLEMENTATION

Amtrak may not have enough time to meet the deadline for implementation of PTC if
delays in the development of I-ETMS continue. Amtrak intends to install I-ETMS on
line segments 1, 2, 4, and 5 of the NEC that are used by tenant railroads deploying I-
ETMS (see Figure 2), and on its locomotives that operate off the NEC, if the system is
developed before the end of 2015.27 In the implementation plan, Engineering stated that
it would work closely with the freight railroads during the development of I-ETMS to
address any technical problems.

When developing the implementation plan, Engineering assumed that the 26 I-ETMS
specifications needed for full system development were in the final stages of approval
and that I-ETMS installation would follow on the heels of ACSES installation. In 2010,
the Association of American Railroads reported that the freight railroads would
complete these specifications by January 2011. However, an August 2012 FRA report
states that only seven of these 26 specifications are complete.28 Amtrak’s plan states that


27 Amtrak is installing I-ETMS on the NEC to meet the interoperability requirements of the PTC rule.
However, Engineering stated that tenant railroads might need to equip their locomotives with ACSES in
order to operate on the NEC if the freight railroads delay development of I-ETMS past the end of 2015.
28 Federal Railroad Administration Report to Congress: Positive Train Control Implementation Status, Issues, and

Impacts, FRA, August 2012.
                                                                                        23
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

it would require 26 months to install I-ETMS on the NEC, starting in October 2012 and
completing work by December 2014. The delay in the completion of the I-ETMS
specifications has the effect of pushing back Amtrak’s implementation of I-ETMS.

To mitigate this delay, Amtrak is attempting to move forward with installing I-ETMS
on the NEC through an outside contractor. On February 17, 2012, Amtrak issued a
request for proposals for the installation of I-ETMS on the NEC despite the lack of
complete specifications, availability of hardware and software, or FRA approval of the
system. The request requires the potential contractor to prepare its proposal based upon
the current state of I-ETMS, to conduct the work in phases as I-ETMS is developed, and
calls for a firm-fixed-price contract. An Amtrak official stated that the intention is to
shift the risk to the contractor. We believe that moving forward with this contract has its
own significant risks because the potential contractor has no basis on which to develop
a fair and reasonable fixed price proposal due to the lack of information. Therefore,
Amtrak may end up paying more for the work than anticipated due to future contract
modifications that become necessary to complete the work, despite any precautions
Amtrak builds into the contract. Engineering officials, however, believe this phased
implementation approach is less risky than delaying implementation until the full
development of I-ETMS.

Technical challenges in the implementation of I-ETMS off the NEC could also pose a
risk to Amtrak’s schedule. For example, a concern within the rail industry, including
Amtrak, is how well I-ETMS will predict train-stopping distances. In January 2011,
Amtrak and BNSF Railway conducted stopping-distance tests under multiple
conditions on BNSF’s Red Rock Subdivision in Oklahoma. Results indicated that trains
stopped well short of their intended targets. Similarly, tests conducted on Amtrak’s
Heartland Flyer in Fort Worth, Texas, identified other technical problems using an I-
ETMS prototype for revenue service. Further, according to FRA, another round of tests
conducted in July 2012 showed problems with the communications and software in one
of the developmental stages of I-ETMS.

Although both Amtrak and FRA officials stated that these technical problems will
eventually be overcome, the implementation plan identified interoperability outside of
the NEC as a risk. According to Engineering, because I-ETMS development was outside
of its control, it did not plan to mitigate the risk and consequently no one in Amtrak is
accountable for mitigating the potential risks posed by delays in the development of I-
ETMS. Although the plan stated that Amtrak would work closely with the freight
                                                                                           24
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

railroads during the development of I-ETMS, Amtrak is only a nonvoting member in
several I-ETMS working groups, including the Association of American Railroads PTC
working group and Interoperable Train Control working group. Therefore, we question
Amtrak’s ability to influence either group to develop solutions to these problems in a
timely manner. Moreover, Amtrak has not yet assigned an individual to continuously
monitor and assess the risks associated with the development of I-ETMS.



CONCLUSIONS

Amtrak is attempting to mitigate the risks posed by current challenges to PTC
implementation in various ways, but overcoming some of these challenges by the
December 31, 2015, deadline will require increased attention and emphasis. If Amtrak
cannot meet its needs for radio spectrum within the next year, it may need to engage
the federal government in devising a solution because it does not currently have a
technically viable alternative to using the 220 MHz radio frequency spectrum. In
addition, Amtrak cannot rely on the federal government to provide extra funds at the
last minute for implementation and therefore needs up-to-date, accurate estimates of
the costs of implementation over the next 3 years, including the cost of installing PTC
on host railroad lines, to properly request and budget for PTC implementation. Further,
Amtrak cannot risk delays associated with regulatory approvals of ACSES upgrades,
nor can it absorb further delays to development of I-ETMS, particularly for technical
problems that affect passenger trains, if it expects to meet the statutory deadline.

While formidable in and of themselves, all four of these challenges are interrelated,
requiring the integration of efforts across departments to address them in order to
implement PTC by the deadline and achieve the safety benefits derived from PTC
systems envisioned in RSIA. Amtrak will have a better chance of successfully
accomplishing this if overall responsibility and accountability for these challenges are
assigned to a senior manager who has the authority to address them.
                                                                                          25
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

RECOMMENDATIONS

To address the challenges Amtrak is facing in implementing PTC, we recommend that

1. The Vice President, Operations, designate a senior executive to manage the overall
   program, or fully empower the Deputy Chief Engineer for Communications and
   Signals with clear responsibility and authority to manage the implementation of
   PTC as an integrated program; this would include the clear authority to address all
   of the challenges involved, regardless of the departments they pertain to, and the
   ability to make strategic and budgetary tradeoffs among the challenges.

2. The program manager designated by the Vice President, Operations, ensure that
   Amtrak

   a. periodically reassesses the risks to PTC implementation and mitigates those
      risks, as necessary;

   b. conducts a full analysis of the technical risks and costs associated with obtaining
      spectrum licenses in a piecemeal fashion, to determine the appropriate level of
      support needed, if any, from the federal government, to obtain spectrum in a
      technically adequate, cost-effective manner, or begin to develop a viable
      alternative if 220 MHz spectrum is unavailable;

   c. updates and improves the reliability and accuracy of its cost estimates and
      includes the full amount of required funding in the 5-year financial plan and the
      annual legislative and grant funding request to complete implementation of PTC
      by the deadline;

   d. develops a master project schedule that includes detailed tasks and dependencies
      and periodically revises it;

   e. reconsiders the risks associated with the plan to award a fixed price contract to
      install I-ETMS;

   f. remains engaged with FRA to increase the likelihood that the FRA review
      process stays on schedule; and
                                                                                          26
                               Amtrak Office of Inspector General
                 Railroad Safety: Amtrak Has Made Progress in Implementing
                  Positive Train Control, but Significant Challenges Remain
                        Report No. OIG-E-2013-003, December 20, 2012

      g. engages sufficiently at the appropriate level with host railroads and others in the
         industry to influence developments with I-ETMS that affect Amtrak.



MANAGEMENT COMMENT AND OIG ANALYSIS

Amtrak’s Vice President, Operations, provided comments on a draft of this report on
December 12, 2012, wherein he concurred with all of our recommendations and
established time frames in which Amtrak will implement the recommendations (see
Appendix III). We consider his comments responsive to our recommendations and we
will follow up on their implementation.

                                             ---
We appreciate the courtesies and cooperation that Amtrak representatives extended to
us during the course of this review. If you have any questions, please contact me
(Calvin.Evans@amtrakoig.gov, 202.906.4507) or Jason Venner, Senior Director
(Jason.Venner@amtrajoig.gov, 202.906.4405).



cc:      Joseph H. Boardman, President and Chief Executive Officer
         Eleanor D. Acheson, Vice President, General Counsel and Corporate Secretary
         Gordon L. Hutchinson, Acting Chief Financial Officer
         Joseph H. McHugh, Vice President, Government Affairs and Corporate
                Communications
         Bruce R. Pohlot, Chief Engineer
         E. Keith Holt, Deputy Chief Engineer, Communications and Signals
         Paul E. Vilter, Assistant Vice President, Host Railroads
         William J. Auve, Jr., Assistant Controller, Capital and Costing
                                                                                     27
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

                                     Appendix I

                      SCOPE AND METHODOLOGY

This report provides the results of our evaluation of Amtrak’s implementation of PTC
systems. We focused our work on Amtrak’s efforts to identify and mitigate risks to the
successful implementation of PTC by the statutory deadline of December 31, 2015.
Specifically, our objective was to report on the extent to which Amtrak is addressing
what are currently the most significant challenges to successful PTC implementation.
We performed our work in Washington, D.C.; Wilmington, Delaware, and Philadelphia,
from October 2011 through September 2012.

To address the extent to which Amtrak is addressing challenges in acquiring radio
spectrum, we obtained and analyzed plans and procurement documents to acquire
spectrum. We also interviewed officials from Engineering, the Law Department, the
Office of Governmental Affairs and Corporate Communications, and Amtrak’s
Procurement Services office, to gain an understanding of the challenges Amtrak is
facing in acquiring 220 MHz radio frequency spectrum. We also reviewed Amtrak’s
analysis of spectrum licenses included in contractors’ bid proposals and reviewed
documents in the FCC docket regarding availability of spectrum on the NEC.

To address the extent to which Amtrak is addressing funding challenges, we obtained
and analyzed cost estimates and spending plans for installing PTC on Amtrak and host
railroad property and equipment, budget documents for FY 2013, and Amtrak’s FY
2012–2016 Five-Year Financial Plan. We reviewed and evaluated Amtrak’s assessment of
its funding risks in its PTC implementation plan. We met with officials from
Engineering, Transportation, and Finance, to gain an understanding of their cost
estimating methodologies and Amtrak’s budgeting process. We compared
Engineering’s actual cost estimating methodology with both its project control guidance
for capital construction costs and the U.S. Government Accountability Office’s Cost
Estimating and Assessment Guide.

To address the extent to which Amtrak is dealing with challenges in meeting regulatory
requirements, we reviewed Amtrak’s PTC implementation plan to gain an
understanding of how Engineering planned to develop and deploy ACSES and its
associated risks. We also reviewed Engineering’s submissions of ACSES upgrades and
correspondence with FRA. We met with Engineering and FRA to gain an
                                                                                       28
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

understanding of the regulatory review process. We also met with Amtrak’s
Procurement Services office and obtained documents from it to review issues with the
acquisition of ACSES components. Further, we obtained and reviewed Engineering’s
project status reports and other project management documents.

To evaluate the extent to which Amtrak is addressing delays in the development of I-
ETMS, we analyzed the PTC implementation plan to gain an understanding of how
Engineering planned to deploy I-ETMS and its associated risks. We discussed the
development of I-ETMS with Engineering and officials from the Association of
American Railroads. We also obtained and analyzed Amtrak’s request for proposals for
installation of I-ETMS on the NEC. To determine problems and concerns that Amtrak
officials had with I-ETMS equipment, we obtained and reviewed testing information
from several braking and functionality tests conducted with BNSF during 2011 and 2012
and met with Engineering and Transportation to discuss the results of these tests. We
also discussed Amtrak’s participation in I-ETMS working groups with officials from
Engineering.

We performed this evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our evaluation
objectives.



Use of Computer-Processed Data

We did not use computer-processed data to determine our findings or conclusions in
this report.



Internal Controls

In conducting the evaluation, we reviewed project management controls for the
implementation of PTC within the context of our objectives. We also examined other
Amtrak controls associated with estimating, budgeting, and funding capital
construction projects. We determined that a deficiency in internal controls existed due
                                                                                            29
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

to Amtrak’s noncompliance with reporting requirements in the Passenger Rail
Investment and Improvement Act of 2008. We presented the results of our review in the
body of this report.



Prior Reports

We relied on the following FRA, Congressional Research Service, Department of
Transportation OIG, Amtrak OIG, and U.S. Government Accountability Office reports
in conducting our evaluation:

Federal Railroad Administration Report to Congress: Positive Train Control Implementation
Status, Issues, and Impacts (Federal Railroad Administration, August 2012)

Positive Train Control (PTC): Overview and Policy Issues, Congressional Research Service
(R42637, July 30, 2012)

Amtrak Corporate Governance: Implementing a Risk Management Framework is Essential to
Achieving Amtrak’s Strategic Goals, Amtrak OIG (OIG-A-2012-007, March 30, 2012)

Annual Report on Amtrak’s Budget and Five-Year Financial Plan, Department of
Transportation OIG (J-2012-002, March 28, 2012)

Rail Safety: Federal Railroad Administration Should Report on Risks to the Successful
Implementation of Mandated Safety Technology, U.S. Government Accountability Office
(GAO-11-133, December 15, 2010)

Cost Estimating and Assessment Guide: Best Practices for Developing and Managing Capital
Program Costs, U.S. Government Accountability Office (GAO-09-3SP, March 2, 2009)
                                                                                                   30
                                                    Amtrak Office of Inspector General
                                      Railroad Safety: Amtrak Has Made Progress in Implementing
                                       Positive Train Control, but Significant Challenges Remain
                                             Report No. OIG-E-2013-003, December 20, 2012


                                                                   Appendix II

                                        ACSES IMPLEMENTATION SCHEDULE




Source: OIG analysis of Amtrak technical documents
* “Cut-in” is the process of integrating the components and turning the system on for service.
                                                             31
              Amtrak Office of Inspector General
Railroad Safety: Amtrak Has Made Progress in Implementing
 Positive Train Control, but Significant Challenges Remain
       Report No. OIG-E-2013-003, December 20, 2012


                      Appendix III
       COMMENTS FROM AMTRAK'S
      VICE PRESIDENT, OPERATIONS
                                                             32
              Amtrak Office of Inspector General
Railroad Safety: Amtrak Has Made Progress in Implementing
 Positive Train Control, but Significant Challenges Remain
       Report No. OIG-E-2013-003, December 20, 2012
                                                             33
              Amtrak Office of Inspector General
Railroad Safety: Amtrak Has Made Progress in Implementing
 Positive Train Control, but Significant Challenges Remain
       Report No. OIG-E-2013-003, December 20, 2012
                                                                      34
                       Amtrak Office of Inspector General
         Railroad Safety: Amtrak Has Made Progress in Implementing
          Positive Train Control, but Significant Challenges Remain
                Report No. OIG-E-2013-003, December 20, 2012

                                  Appendix III

                           ABBREVIATIONS

ACSES    Advanced Civil Speed Enforcement System
FCC      Federal Communications Commission
FRA      Federal Railroad Administration
FY       fiscal year
GAO      Government Accountability Office
GPS      global positioning system
I-ETMS   Interoperable-Electronic Train Management System
MHz      megahertz
NEC      Northeast Corridor
OIG      Office of Inspector General
PTC      Positive Train Control
RSIA     Rail Safety Improvement Act of 2008
                                                                           35
                            Amtrak Office of Inspector General
              Railroad Safety: Amtrak Has Made Progress in Implementing
               Positive Train Control, but Significant Challenges Remain
                     Report No. OIG-E-2013-003, December 20, 2012

                                     Appendix IV

                            OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Larry Chisley, Lead Evaluator

George Binns, Jr., Senior Operations Analyst

Timothy Wells, Principal Operations Analyst

James Quinn, Evaluator

Courtney Catanzarite, Auditor
                                                                                       36
                           Amtrak Office of Inspector General
             Railroad Safety: Amtrak Has Made Progress in Implementing
              Positive Train Control, but Significant Challenges Remain
                    Report No. OIG-E-2013-003, December 20, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency within
                                Amtrak;
                                prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations;
                                review security and safety policies and programs; and
                                review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Affairs               Congressional and Public Affairs
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4134
                             Email:    bret.coulson@amtrakoig.gov
